<html>
<title> - LEGISLATIVE HEARING ON FOUR TELECOMMUNICATIONS BILLS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


          LEGISLATIVE HEARING ON FOUR TELECOMMUNICATIONS BILLS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2018

                               __________

                           Serial No. 115-113
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           
                           

      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-754 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef889f80af8c9a9c9b878a839fc18c8082c1">[email&#160;protected]</a> 




                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 7_____

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     2
    Prepared statement...........................................     3
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, prepared statement....................................     4
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
    Prepared statement...........................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, prepared statement..............................   108

                               Witnesses

Tim Donovan, Senior Vice President, Legislative Affairs, 
  Competitive Carriers Association...............................    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................   137
David L. Donovan, President and Executive Director, New York 
  State Broadcasters Association, Inc............................    21
    Prepared statement...........................................    23
    Answers to submitted questions...............................   140
Robert Gessner, President, Massillon Cable TV, Inc., and 
  President, American Cable Association..........................    51
    Prepared statement...........................................    53
    Answers to submitted questions...............................   152
John H. Madigan, Jr., Vice President and Chief Public Policy 
  Officer, American Foundation for Suicide Prevention............    63
    Prepared statement...........................................    65
    Answers to submitted questions...............................   159
Sarah Morris, Director of Open Internet Policy, Open Technology 
  Institute, New America Foundation..............................    75
    Prepared statement...........................................    77

                           Submitted Material

H.R. 2345, the National Suicide Hotline Improvement Act of 2017..   104
H.R. 2903, the Rural Reasonable and Comparable Wireless Access 
  Act of 2017....................................................   110
H.R. 3787, the Small Entity Regulatory Relief Opportunity Act of 
  2017...........................................................   115
Discussion Draft, the Preventing Illegal Radio Abuse Through 
  Enforcement Act................................................   122
Report of the New York State Broadcasters Association, ``Field 
  Measurements of Unauthorized FM Band Radio Signals in New York, 
  NY Metropolitan Area Phase 4,'' May 19, 2016, \1\ submitted by 
  Mr. Lance
Statement of Christine Moutier, Chief Medical Officer, American 
  Foundation for Suicide Prevention, March 22, 2018, submitted by 
  Mrs. Blackburn.................................................   127

----------
\1\ The information has been retained in committee files and also is 
available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108059.

 
          LEGISLATIVE HEARING ON FOUR TELECOMMUNICATIONS BILLS

                              ----------                              


                        THURSDAY, MARCH 22, 2018

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:24 a.m., in 
room 2322, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Shimkus, 
Latta, Olson, Kinzinger, Bilirakis, Johnson, Flores, Brooks, 
Collins, Costello, Doyle, Welch, Loebsack, Eshoo, Engel, 
Matsui, McNerney, and Pallone (ex officio).
    Also present: Representatives Tonko, Schrader, and Chris 
Stewart.
    Staff present: Jon Adame, Policy Coordinator, 
Communications and Technology; Robin Colwell, Chief Counsel, 
Communications and Technology; Sean Farrell, Professional Staff 
Member, Communications and Technology; Adam Fromm, Director of 
Outreach and Coalitions; Elena Hernandez, Press Secretary; Tim 
Kurth, Deputy Chief Counsel, Communications and Technology; 
Lauren McCarty, Counsel, Communications and Technology; Austin 
Stonebraker, Press Assistant; Evan Viau, Legislative Clerk, 
Communications and Technology; Jeff Carroll, Minority Staff 
Director; Jennifer Epperson, Minority FCC Detailee; David 
Goldman, Minority Chief Counsel, Communications and Technology; 
Tiffany Guarascio, Minority Deputy Staff Director and Chief 
Health Advisor; Jerry Leverich, Minority Counsel; Jourdan 
Lewis, Minority Staff Assistant; Dan Miller, Minority Policy 
Analyst; and C.J. Young, Minority Press Secretary.
    Mr. Shimkus [presiding]. We are going to call the hearing 
to order and get our panelists to take seats. That's to help us 
get our arrangement for how we ask questions. They've called 
votes. So we are going to adjourn--I mean, recess.
    We are going to go vote, and then we are going to come 
back. So you can keep walking around. But your place in line 
has been saved.
    So with that----
    [Recess.]

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn [presiding]. All right. The committee will 
reconvene, and I recognize myself for 5 minutes for an opening 
statement.
    And I want to welcome you all. I apologize to everyone. We 
thought we had votes at 10:00, and then it was going to be 
10:10 and come on back over here--you know, it's just one of 
those days--a getaway day, an omnibus day, and we are going to 
go ahead and start this hearing because you never know when the 
bell is going to go off.
    A little less than 2 months ago, we did our first 
legislative hearing. This is our second. We sat here in this 
room discussing 25 pieces of legislation addressing broadband 
infrastructure, representing all the views on the table.
    Last month, we shocked the naysayers by shepherding many of 
the subcommittee's top priorities through the full committee 
unanimously in RAY BAUM'S Act.
    Today, just as that package is about to head to the 
President's desk, we've got four more bipartisan bills that 
address everything from combating illegal pirate radio to 
identifying ways technology can help prevent suicide across the 
country.
    I couldn't be more pleased with the work of members of the 
subcommittee and all the important initiatives we've gotten 
some work going on this year.
    I'd also like to commend Congressman Stewart on being a 
champion for the National Suicide Hotline Improvement Act, 
which currently has 78 cosponsors, including seven of our 
subcommittee members: Bilirakis, Clarke, Eshoo, Flores, 
McKinley, Rush, and Tonko.
    Suicide is the tenth leading cause of death in Tennessee, 
and this legislation would make it easier for those facing a 
mental crisis to get the help they need with a dedicated N-1-1 
number.
    We'll also be discussing Mr. McKinley and Mr. Welch's bill, 
the Rural Reasonable and Comparable Wireless Access Act, which 
takes a new perspective on getting wireless broadband out to 
rural areas.
    This subcommittee has long been looking for ways to close 
the digital divide, and today we have got another potential 
solution--bipartisan, I will add.
    And speaking of infrastructure, another bill which could 
help spur investment in broadband infrastructure is Mr. Latta 
and Mr. Schrader's Small Entity Regulatory Relief Opportunity 
Act, or SERRO.
    Small entities across the country, regardless of 
technology, face miles of red tape at the FCC to comply with 
regulations designed for large providers.
    Money that those small, often rural entities spend on 
complying with regulations is money that could be used for 
investing in broadband deployment, and it's important for us 
and the Commission to keep this in mind instead of assuming 
that one size should fit all in every case.
    Finally, we'll be discussing Mr. Lance and Mr. Tonko's 
PIRATE Act, which many members of the subcommittee have worked 
on, including Mr. Collins, Tonko, Bilirakis, Green, Moulton, 
King, and Mrs. Dingell.
    Illegal pirate radio disrupts access to important public 
safety communications, including our Nation's Emergency Alert 
System and critical aviation frequencies. These illegal 
broadcasts deprive Americans of important programming provided 
by legitimate license holders serving the public interest.
    It's high time we pay more attention to the harm being done 
to consumers and broadcasters alike.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Good morning and welcome to our second legislative hearing 
of 2018. A little less than 2 months ago, we sat here in this 
room discussing 25 pieces of legislation addressing broadband 
infrastructure representing all the views on the table. Last 
month, we shocked the naysayers by shepherding many of the 
subcommittee's top priorities through the full committee 
unanimously in RAY BAUM'S Act. Today, just as that package is 
about to head toward the President's desk, we've got four more 
bipartisan bills that address everything from combating illegal 
pirate radio to identifying ways technology can help prevent 
suicide across the country. I couldn't be more pleased with the 
work of members of the subcommittee and all the important 
initiatives we've got going on this year.
    I'd also like to commend Congressman Stewart on being a 
champion for the National Suicide Hotline Improvement Act, 
which currently has 78 cosponsors, including seven of our 
subcommittee members: Mr. Bilirakis, Ms. Clarke, Ms. Eshoo, Mr. 
Flores, Mr. McKinley, Mr. Rush, and Mr. Tonko. Suicide is the 
10th leading cause of death in Tennessee, and this legislation 
would make it easier for those facing a mental crisis to get 
the help they need with a dedicated N-1-1 number.
    We'll also be discussing Mr. McKinley and Mr. Welch's bill, 
the Rural Reasonable and Comparable Wireless Access Act, which 
takes a new perspective on getting wireless broadband out to 
rural areas. This subcommittee has long been looking for ways 
to close the digital divide, and today we will be discussing 
another potential solution.
    And speaking of infrastructure, another bill which could 
help spur investment in broadband infrastructure is Mr. Latta 
and Mr. Schrader's Small Entity Regulatory Relief Opportunity 
Act, or SERRO. Small entities across the country, regardless of 
technology, face miles of red tape at the FCC to comply with 
regulations designed for large providers. Money that these 
small, often rural entities spend on complying with regulations 
is money that they could instead be investing in broadband 
deployment, and it's important for us and for the Commission to 
keep this in mind instead of assuming that one size should fit 
all in every case.
    Finally, we'll be discussing Mr. Lance and Mr. Tonko's 
PIRATE Act, which many Members of the subcommittee have helped 
work on; including Mr. Collins, Mr. Tonko, Mr. Bilirakis, Mr. 
Green, Mr. Moulton, Mr. King, and Mrs. Dingell. Illegal pirate 
radio disrupts access to important public safety 
communications, including our Nation's Emergency Alert System 
and critical aviation frequencies. These illegal broadcasts 
deprive Americans of important programming provided by 
legitimate license holders serving the public interest. It's 
high time we pay more attention to the harm being done to 
consumers and broadcasters alike.
    I'd like to thank our witnesses for being here, and with 
that I will yield 1 minute to the vice chairman of the 
subcommittee, Mr. Lance.

    Mrs. Blackburn. I'd like to thank our witnesses for being 
here, and Mr. Lance is not here, so would anyone like the 1 
minute?
    Mr. Latta, you're recognized.
    Mr. Latta. Well, thank you, Madam Chair, and I appreciate 
you holding today's hearing on these four bills, including my 
own, the Small Entity Regulatory Relief Opportunity Act, or 
SERRO.
    Recognizing that small businesses are the engines of our 
economy and do not require the same level of regulatory 
oversight as large entities, the gentleman from Oregon, Mr. 
Schrader, and I put forth a commonsense proposal to create a 
regulatory environment that encourages innovation, spurs 
competition, and fosters consumer choice.
    SERRO offers a pathway for regulatory relief for small 
entities by directing the FCC to streamline their existing 
waiver process. This will benefit small business and their 
customers by providing greater certainty, fewer costs, and 
administrative efficiency.
    Since introducing H.R. 3787, Mr. Schrader and I have made 
countless efforts to consider all stakeholder feedback and 
input, and today's discussion is a continuation of those 
efforts.
    I look forward to hearing from our panelists, and I thank 
the gentlelady, the chair of the subcommittee, for yielding.
    Thank you.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Thank you, Chairman Blackburn. I appreciate the chairman 
for holding today's hearing on four promising bills, including 
my own--the Small Entity Regulatory Relief Opportunity Act or 
SERRO.
    Recognizing that small businesses are the engines of our 
economy and do not require the same level of regulatory 
oversight as large entities, Mr. Schrader and I put forth a 
commonsense proposal to create a regulatory environment that 
encourages innovation, spurs competition, and fosters consumer 
choice.
    SERRO offers a pathway for regulatory relief for small 
entities by directing the FCC to streamline their existing 
waiver process. This will benefit small business and their 
customers by providing greater certainty, fewer costs, and 
administrative efficiency.
    Since introducing H.R. 3787, Mr. Schrader and I have made 
countless efforts to consider all stakeholder feedback and 
input, and today's discussion is a continuation of those 
efforts. I look forward to hearing from the panelists. I thank 
the chairman and yield back.

    Mrs. Blackburn. The gentleman yields back.
    Mr. Doyle, you're recognized.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair, for holding this 
hearing, and thank you to the witnesses for appearing before us 
today.
    Today we are considering four pieces of legislation. In 
particular, I am happy to see before us a bill by my good 
friend Peter Welch, H.R. 2903, the Rural Reasonable and 
Comparable Wireless Act.
    This bipartisan legislation seeks to establish national 
standards for mobile service, mobile data service, and 
broadband services in rural America that are comparable to 
those in urban America.
    I know this is an issue that my friend and colleague is 
very passionate about, and as this bill points out, under the 
Communications Act, Congress tasked the FCC with ensuring that 
rural areas had similar access and availability of service as 
their urban counterparts.
    But I don't have to tell anyone here that we have fallen 
short of that goal. Get on a highway that isn't the I-95 
corridor, and wireless service gets spotty fast.
    Or move from Pittsburgh or DC to rural Tennessee and try to 
get fiber internet. We need to make sure that people in rural 
America can get the same kind of widespread high-speed access 
as we have in urban areas and along urban corridors.
    I am proud the committee Democrats have proposed a plan 
with Ranking Member Pallone's LIFT America Act that seeks to 
close this gap with a $40 billion investment in capital 
investments.
    Congressman Lance and I have also introduced the AIRWAVES 
Act along with a number of our colleagues on both sides of the 
aisle that sets aside 10 percent of the revenue from the 
spectrum auctions set out in the bill for deployment of 
broadband infrastructure in unserved and underserved 
communities in rural America.
    Another bill we have under discussion today is 
Congresswoman Bernice Johnson's National Suicide Hotline 
Improvement Act, which would require the FCC to work in 
coordination with SAMHSA to explore the feasibility of a three-
digit dialing code similar to 9-1-1 or 3-1-1 for suicide 
prevention.
    This legislation passed by UC in the Senate, a seemingly 
rare feat these days, and I hope we can continue to move this 
important legislation forward.
    We are also discussing a bill on unlicensed radio 
broadcasts today, and while I have heard anecdotes that there 
is a problem on the rise in major cities like New York and 
Miami, I am concerned that the proposed solution is to increase 
fines for these broadcasts tenfold.
    Years ago, I worked with Congressman Lee Terry on the Low 
Power FM Radio legislation. We saw that there was an issue of 
illegal broadcasts but also that there weren't many 
opportunities for communities around the country to express 
themselves on the air.
    We sought to address this by increasing the opportunities 
available to these communities by opening a Low Power FM 
application window, which resulted in thousands of new stations 
across the country.
    As we consider this legislation, I think we need to balance 
the legitimate concerns of broadcast licensees with the limited 
opportunities for expression available to some communities.
    My hope is as we consider this bill we can take an approach 
that addresses both groups' needs.
    And the last bill we are considering today is Congressman 
Latta's H.R. 3787, the Small Entity Regulatory Relief 
Opportunity Act.
    I am very concerned about this bill. The way that it is 
drafted would open up a huge regulatory hole at the FCC and 
would enable companies with over a billion dollars in revenue 
to be exempted from a wide range of rules intended to protect 
consumers and, to be honest, small businesses as well.I am very 
skeptical about the merits and need for this legislation.
    [The prepared statement of Mr. Doyle follows:]

              Prepared statement of Hon. Michael F. Doyle

    Thank you, Madam Chairman, for holding this hearing, and 
thank you to the witnesses for appearing before us today.
    Today we are considering four pieces of legislation. I'm 
happy that we've decided to take these up and hope that we can 
proceed with consideration of these bills under regular order.
    In particular, I'm happy to see before us a bill by my good 
friend Peter Welch: H.R. 2903 the Rural Reasonable and 
Comparable Wireless Act. This bipartisan piece of legislation 
seeks to establish national standards for mobile service, 
mobile data service, and broadband services in rural America 
that are comparable to those in urban America. I know this is 
an issue that my friend and colleague is very passionate about. 
As this bill points out, under the Communications Act, Congress 
tasked the FCC with ensuring that rural areas had similar 
access and availability of service as their urban counterparts. 
I don't have to tell anyone here that we have fallen far short 
of that goal.
    While we've done an enviable job of electrifying the rural 
parts of our country, we've fallen far short in getting 
broadband not just to people's homes, but to the areas they 
live, work, and commute. Get on a highway that isn't the I-95 
corridor, and wireless service gets spotty fast. We need to 
make sure that people in rural America can get the same kind of 
widespread high speed access as we have in urban areas and 
along urban corridors.
    I'm proud that committee Democrats have proposed a plan 
with Ranking Member Pallone's Lift America Act that seeks to 
close this gap with $40 billion in capital investments.
    Congressman Lance and I have also introduced the AIRWAVES 
Act along with a number of our colleagues on both sides of the 
aisle that would set aside 10 percent of the revenue from the 
spectrum auctions set out in the bill for the deployment of 
broadband infrastructure in unserved and underserved 
communities in rural America.
    Another bill we have under discussion today is 
Congresswoman Bernice Johnson's National Suicide Hotline 
Improvement Act, which would require the FCC to work in 
coordination with SAMHSA to explore the feasibility of a three-
digit dialing code similar to 9-1-1 or 3-1-1 for suicide 
prevention. This legislation passed by UC in the Senate, a 
seemingly rare feat these days, and I hope we can continue to 
move this important legislation forward.
    We are also discussing a bill on unlicensed radio 
broadcasts today. While I have heard anecdotes that this is a 
problem on the rise on major cities like New York and Miami, 
I'm concerned that the proposed solution is to increase fines 
for these broadcast tenfold.
    Years ago I worked with Congressman Terry on Low Power FM 
radio legislation. We saw that there was an issue of illegal 
broadcasts, but also that there weren't many opportunities for 
communities around the country to express themselves on the 
air. We sought to address this by increasing the opportunities 
available to them by opening a Low Power FM application window, 
which resulted in thousands of new stations around the country. 
As we consider this legislation I think we need to balance the 
legitimate concerns of broadcast licensees with the limited 
opportunities for expression available to some communities. My 
hope is that as we consider this bill, we can take an approach 
that addresses both groups' needs.
    The last bill that we are considering today is Congressman 
Latta's H.R 2787, the Small Entity Regulatory Relief 
Opportunity Act. I am very concerned about this bill. The way 
that it is drafted would open up a huge regulatory hole at the 
FCC and would enable companies with over a billion dollars in 
revenue to be exempted from a wide range of rules intended to 
protect consumers and, to be honest, small businesses as well. 
I'm very skeptical about the merits and need for this 
legislation.
    With that I want to yield the balance of my time.

    Mr. Doyle. With that, Madam Chair, I want to yield the 
balance of my time to my good friend and colleague, Mr. Welch.
    Mr. Welch. Thank you very much.
    You know, as we sit here today we all know that rural 
broadband infrastructure is insufficient and rural America is 
being left behind.
    The FCC, in my view, is not meeting its congressionally 
mandated goal, which is ensuring rural America has access to, 
quote, ``reasonably comparable service to their urban areas.''
    We basically haven't had a definition of what ``reasonably 
comparable'' is, and my bill, with Mr. McKinley, is designed to 
get at this issue and make ``reasonably comparable'' real and 
meaningful in rural America, just like electricity was when we 
made that public policy commitment in the 1930s to wire rural 
America.
    The FCC, under this bill, would have to gather data from 
the 20 most populous metro areas and detail the average signal 
strength and speeds of mobile voice and mobile internet 
services.
    It would also require the FCC to determine the extent to 
which mobile and fixed broadband service provided in rural 
areas is reasonably comparable.
    That's what the bill would do. It is absolutely essential 
we do that in order to be able to say yes or no, that rural 
America has reasonably comparable services.
    Thank you, Madam Chair, and thank you, Ranking Member 
Doyle.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Doyle. I yield back.
    Mrs. Blackburn. Chairman Walden is not here. Are there 
Members seeking to claim the chairman's time for an opening?
    No one seeking the time?
    Mr. Pallone, you're recognized for 5 minutes for an opening 
statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair.
    Our hearing today will examine four bipartisan 
communication bills. Though communications is the thread that 
binds them all, they each touch on vastly different but 
important issues.
    First, I am pleased we are considering the National Suicide 
Hotline Improvement Act of 2017, which aims to quickly connect 
individuals experiencing a mental health crisis with a 
professional.
    Suicide is the tenth leading cause of death for people of 
all ages, and every year hundreds of thousands of people are 
injured in attempted suicides or other mental health 
emergencies, and this bill would require the Federal 
Communications Commission to study how to establish a 
nationwide three-digit number to access the National Suicide 
Prevention Lifeline.
    With rates of suicide increasing each year, we must do all 
we can to get support services to those in need, and I'd like 
to thank one of our witnesses, Mr. Madigan, for all the 
important work you do at the American Foundation for Suicide 
Prevention, and thanks also for being with us today.
    We will also be discussing the Rural Reasonable and 
Comparable Wireless Access Act introduced by Congressmen Welch 
and McKinley.
    This bill would shine a light on the quality of voice and 
broadband services offered in rural areas. It would direct the 
FCC to examine whether people in rural communities actually 
receive the same level of service as those in urban areas, and 
the FCC has talked a lot over the past year about improving 
connections in rural areas.
    This bill would require the FCC to collect and analyze the 
facts on the ground and make sure that it's actually getting 
the job done.
    I am also glad we will be discussing the problems caused by 
pirate radio broadcasters--people who broadcast illegally on 
our public airwaves. Pirate broadcasters flout the law and 
interfere with the licensed broadcasters who follow the law.
    These pirate broadcasts can be frustrating for people but, 
more critically, they prevent people from hearing important 
communications and public safety information in times of 
emergency, and that's simply unacceptable, and I look forward 
to hearing about ways that we can work to solve this problem.
    And finally, we will discuss the Small Entity Regulatory 
Relief Opportunity Act. While I certainly appreciate the 
difficulties faced by small businesses across the country, I 
have concerns with the ways this bill would try to solve those 
problems.
    The bill would allow the FCC to roll back or delay consumer 
protections for subscribers of telecommunications and cable 
companies that serve as many as 6.5 million customers.
    These supposedly small businesses could be larger than 35 
States, and many of the millions of customers of the providers 
have fewer or no choices.
    But aside from size, given the current FCC's animosity for 
consumer protections, I don't think this is the right time for 
Congress to encourage the agency to strip away more safeguards 
for millions of people, and we would be better off figuring out 
ways to better protect the American people.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Our hearing today will examine four bipartisan 
communications bills. Though communications is the thread that 
binds them all, they each touch on vastly different, but 
important, issues.
    First, I am pleased we are considering the National Suicide 
Hotline Improvement Act of 2017, which aims to quickly connect 
individuals experiencing a mental health crisis with a 
professional. Suicide is the tenth leading cause of death for 
people of all ages, and every year hundreds of thousands of 
people are injured in attempted suicides or other mental health 
emergencies. This bill would require the Federal Communications 
Commission to study how to establish a nationwide three-digit 
number to access the National Suicide Prevention Lifeline. With 
rates of suicide increasing each year, we must do all we can to 
get support services to those in need. I'd like to thank one of 
our witnesses, Mr. Madigan, for all the important work you do 
with the American Foundation for Suicide Prevention, and thanks 
also for being with us today.
    We will also be discussing the Rural Reasonable and 
Comparable Wireless Access Act, introduced by Congressmen Welch 
and McKinley. This bill would shine a light on the quality of 
voice and broadband services offered in rural areas. It would 
direct the FCC to examine whether people in rural communities 
actually receive the same level of service as those in urban 
areas. The FCC has talked a lot over the past year about 
improving connections in rural areas. This bill would require 
the FCC to collect and analyze the facts on the ground to make 
sure that it is actually getting the job done.
    I'm also glad that we will be discussing the problems 
caused by ``pirate'' radio broadcasters-people who broadcast 
illegally on our public airwaves. Pirate broadcasters flout the 
law and interfere with the licensed broadcasters who follow the 
law. These pirate broadcasts can be frustrating for people, but 
more critically, they prevent people from hearing important 
communications and public safety information in times of 
emergency. That is simply unacceptable. I look forward to 
hearing about ways that we can work to solve this problem.
    Finally, we will discuss the Small Entity Regulatory Relief 
Opportunity Act. While I certainly appreciate the difficulties 
faced by small businesses across the country, I have concerns 
with the ways this bill would try to solve these problems. The 
bill would allow the FCC to roll back or delay consumer 
protections for subscribers of telecommunications and cable 
companies that serve as many as 6.5 million customers. These 
supposedly small businesses could be larger than 35 States. And 
many of the millions of customers of the providers have few or 
no choices.
    But aside from size, given the current FCC's animosity for 
consumer protections, I do not think this is the right time for 
Congress to encourage the agency to strip away more safeguards 
for millions of people. We would be better off figuring out 
ways to better protect the American people.
    I look forward to the discussion today and hearing from all 
of the witnesses before us. Thank you.

    Mr. Pallone. So I look forward to discussion today and 
hearing from all the witnesses, and I'd like to yield my 
remaining 2 minutes to Mr. McNerney.
    Mr. McNerney. Well, I thank the ranking member for yielding 
and I thank the committee for having this hearing today.
    I am very glad that we were able to get the Improving 
Broadband Access for Veterans Act into the omnibus bill, and I 
say this is an important piece of legislation that will set us 
on a path towards closing the digital divide for veterans. I'd 
like to thank my colleague, Mr. Kinzinger, for working with me 
on the bill.
    One of the bills before us today would help further achieve 
the critical goal of closing the digital divide by setting 
targets for building out high-speed broadband in rural 
America--very important in my district.
    Another bill before us would help Americans, including 
veterans, when they are in crisis. I am glad these commonsense 
proposals are before us today.
    However, I have a concern about one of the bills, the Small 
Entity Regulatory Relief Opportunity Act. While I am very open 
to finding ways to streamline compliance for small businesses, 
I am troubled by the larger trend we are witnessing of 
protections across the board being eliminated.
    I am very concerned that this bill will be another step 
backwards for consumer protection.
    And with that, I'll yield back to the ranking member and to 
the committee.
    Mrs. Blackburn. Gentleman yields back.
    This concludes our Member opening statements. Members are 
reminded that all opening statements are made a part of the 
record.
    At this time, I want to welcome our witnesses and give them 
the opportunity for their opening statements, which will be 
followed by a round of questions.
    We are welcoming Mr. Tim Donovan, vice president of 
legislative affairs at the Competitive Carriers Association; 
Mr. David Donovan, president and executive director of the New 
York State Broadcasters Association; Mr. Robert Gessner, 
president of MCTV; Mr. John Madigan, vice president and chief 
public policy officer of the American Foundation for Suicide 
Prevention; and Ms. Sarah Morris, director of Open Internet 
Policy at the Open Technology Institute at the New America 
Foundation.
    We appreciate that you are each here today. We will begin 
today with you, Mr. Tim Donovan, and you are recognized for 5 
minutes for your opening statement.

 STATEMENTS OF TIM DONOVAN, SENIOR VICE PRESIDENT, LEGISLATIVE 
 AFFAIRS, COMPETITIVE CARRIERS ASSOCIATION; DAVID L. DONOVAN, 
 PRESIDENT AND EXECUTIVE DIRECTOR, NEW YORK STATE BROADCASTERS 
 ASSOCIATION, INC.; ROBERT GESSNER, PRESIDENT, MASSILLON CABLE 
 TV, INC., AND PRESIDENT, AMERICAN CABLE ASSOCIATION; JOHN H. 
 MADIGAN, JR., VICE PRESIDENT AND CHIEF PUBLIC POLICY OFFICER, 
 AMERICAN FOUNDATION FOR SUICIDE PREVENTION; AND SARAH MORRIS, 
 DIRECTOR OF OPEN INTERNET POLICY, OPEN TECHNOLOGY INSTITUTE, 
                     NEW AMERICA FOUNDATION

                    STATEMENT OF TIM DONOVAN

    Mr. Tim Donovan. Thank you.
    Chairman Blackburn, Ranking Member Doyle, and members of 
the subcommittee, thank you for inviting me to testify on 
meeting Congress' mandate for universal service and policies 
that will help close the digital divide for mobile connectivity 
between urban and rural areas.
    I am here on behalf of CCA, representing nearly 100 
wireless carriers as well as the companies that make up the 
wireless ecosystem.
    All CCA members have an interest in closing the digital 
divide, and the vast majority of CCA members employ the same 
consumers that live and work in their communities.
    I thank the subcommittee for steadfast efforts to preserve 
and expand mobile broadband nationwide. We support several 
committee initiatives included in the Consolidated 
Appropriations Act, and thank the leadership, Members, and 
staff for their hard work and long hours to make that happen.
    Today, I will focus primarily on H.R. 2903, the Rural 
Reasonable and Comparable Wireless Access Act of 2017.
    While the title is a mouthful, the underlying issue is 
critically important: making sure that rural America has the 
same opportunities as urban areas, from economic growth and 
jobs to public safety, health, and education because of access 
to robust mobile broadband services.
    CCA thanks Representatives McKinley, Welch, and their nine 
bipartisan cosponsors for focusing on this important issue.
    Universal service is not only a good policy objective, it 
is the law. Congress was clear in its mandate to the FCC to 
ensure that all consumers have access to reasonably comparable 
services as those provided in urban areas.
    H.R. 2903 will provide important transparency into whether 
the FCC is meeting the universal service mandate or if work 
remains by having the FCC promulgate regulations to determine 
whether services available in rural areas are reasonably 
comparable to those in urban areas.
    This committee has been hard at work on addressing issues 
necessary to expand broadband and pave the way to 5G. CCA 
supports those efforts.
    While 5G promises to support services that were once 
considered science fiction, we cannot neglect Americans living 
in areas that lack service.
    We need not look far to see how H.R. 2903 will immediately 
support the FCC in its USF mission. The FCC recently released a 
map depicting areas initially deemed eligible for Mobility Fund 
phase 2 support.
    Because the technical parameters selected by the FCC were 
not sufficient to produce a map that reflects the experience 
you have as you travel your districts, significant portions of 
your States may not be eligible for funding through the 
mobility fund.
    It is now clear that standardizing data as directed in the 
House-passed Rural Wireless Access Act as part of RAY BAUM'S 
Act is not enough to produce an accurate map if the standard is 
not sufficiently calibrated to meet the goal of the program.
    Final maps for eligible areas must reflect the statute's 
call for reasonably comparable services. Further, without a set 
standard, it is not clear that resources allocated by the FCC 
are sufficient.
    Without a goal, it is not possible to set a budget. H.R. 
2903 will help guide funding levels necessary to achieve 
universal service.
    Other important policy decisions also rest on comparable 
service, including access to spectrum and streamlined 
deployment of infrastructure.
    Any evidence that rural Americans do not enjoy comparable 
services as their urban peers should reinvigorate the need for 
policymakers to take steps to support deployment.
    For example, spectrum is a finite resource, and all 
carriers must have access to low-, mid-, and high-band spectrum 
to deploy next-generation mobile broadband, whether in urban or 
rural areas.
    It is necessary to make additional spectrum available for 
all carriers to provide rural areas with the latest services, 
and Congress should first complete the 600 megahertz repack as 
safely, swiftly, and efficiently as possible to allow winning 
bidders to put the spectrum to use to serve consumers, and 
second, auction all available millimeter wave bands as soon as 
possible.
    I thank Representatives Lance, Doyle, and a dozen 
bipartisan cosponsors for their leadership on setting time 
lines to auction this spectrum in the AIRWAVES Act and creating 
a fund from auction proceeds to support deployment in rural 
areas. This makes the bill a win-win for rural America.
    Carriers cannot provide comparable services without 
comparable infrastructure, and any challenges with cost delays 
or permitting are magnified in areas with sparse populations.
    The goals of H.R. 2903 again demonstrate how important 
efforts from the FCC and Congress are to support deployment. 
Separately, CCA appreciates H.R. 3787, sponsored by 
Representatives Latta and Schrader, also under consideration 
today.
    Smaller carriers already must overcome challenges larger 
carriers take for granted, and any appropriate regulatory 
relief Congress can provide will allow them to marshal 
resources to better serve their customers.
    With Congress, the FCC, and the administration all focused 
on closing the digital divide, the time to act is now, and H.R. 
2903 provides a yardstick to measure where efforts remain 
necessary to make sure that rural America is not left behind.
    CCA looks forward with you to making the promise of 
reasonably comparable services a reality as access to mobile 
broadband becomes even more essential for modern life.
    Thank you again for holding today's hearing, and I welcome 
any questions.
    [The prepared statement of Mr. Tim Donovan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. I thank the gentleman.
    Mr. Donovan, you're recognized for 5 minutes.

                 STATEMENT OF DAVID L. DONOVAN

    Mr. David Donovan. On behalf of the New York State 
Broadcasters Association and along with the National 
Association of Broadcasters, I am honored to support the PIRATE 
Act.
    Let me start by thanking Congressman Leonard Lance and 
Congressman Paul Tonko for their leadership in drafting this 
legislation. I also want to thank Congressman Chris Collins, 
who's been a leader on this issue for several years.
    But before I begin, I also want to thank the committee for 
their work in helping to secure repacking funding, which is in 
today's omnibus, and I truly want to thank you for all your 
work in that, and also Congressman Pallone for his work in the 
SANDy Act.
    FCC Chairman Pai and Commissioner Mike O'Rielly have made 
pirate enforcement a priority, and I want to recognize Rosemary 
Harold, who works in the enforcement bureau, and her team for 
her efforts.
    They were on the front lines, and their work is essential. 
But despite these efforts, it's become clear that the FCC needs 
additional tools to combat this problem, and the PIRATE Act 
provides those tools.
    There are hundreds of illegal stations transmitting from 
balconies and rooftops of residential and commercial buildings 
across New York City and northern New Jersey. There are more 
illegal stations in the New York metropolitan area than there 
are legally licensed stations, and the problem is growing. It 
is spreading to Boston, it is spreading to Connecticut, and it 
is spreading throughout the United States.
    Pirates disrupt the emergency alert system. Their 
interference prevents listeners from hearing life-saving 
information broadcast by legal stations.
    Pirates do not participate in the EAS system. So consumers 
listening to these stations will not hear EAS messages.
    But more importantly, they undermine the basic fabric of 
the entire EAS system, which is premised on one station 
monitoring another station, and so on down the line, similar to 
a row of dominoes.
    Pirate interference breaks this chain, which means stations 
who are relying on the EAS messages and consumers listening to 
those EAS messages will not hear them.
    Moreover, in the event of an emergency, whether it's local 
news or public affairs, that lifesaving information consumers 
won't hear because of pirate interference.
    Pirates threaten public health. Their transmitters operate 
and they threaten the health of unsuspecting citizens to RF 
frequency radiation.
    Let me provide you just with a few examples from our 
engineering analysis in 2016. You have slides before you, and 
they're also appearing on the board.
    [The slides appear at the end of Mr. David Donovan's 
prepared statement.]
    What you see before you are pictures of illegal pirate 
radio stations operating in New Jersey and in New York. But the 
critical issue here, why I want you to see these stations, is 
because none of these stations comply with FCC and Government 
RF radiation standards.
    They're broadcasting at power levels between 10 and 3,000 
watts, and if you look at the slides, included in there is how 
close you should be to these pirate antennas. And as a result, 
there are folks who are receiving above Government standard 
levels of RF radiation that can range from 20 to 80 feet.
    Now, on the last slide I will also notice it's right next 
to the East Orange, New Jersey, police station, which we found 
ironic.
    But the bottom line is that, if you live in the top floors 
of these buildings or if you use a rooftop deck, you are being 
exposed to levels that are above Government standards, and this 
is occurring in communities throughout New York, throughout New 
Jersey.
    They're occurring in--we have pirates in Albany. You're 
seeing them in Connecticut. You're seeing them in Boston.
    This requires, we believe, action. But pirates also 
interfere with airport communications on frequencies assigned 
to the FAA, creating an extremely dangerous situation. They 
ignore all consumer protections laws, whether it's sponsorship 
ID laws, indecency, public file requirements, alcohol and 
tobacco advertising laws.
    They have absolutely flouted all FCC political rules and 
regulations. Whether it's access to candidates, equal time, all 
the rules that have been set down by the Federal Communications 
Commission are flatly ignored.
    The PIRATE Act solves this problem. It gives the FCC 
additional tools. It significantly increases the fines for 
operating an illegal station. It clarifies existing law with 
regarding to liability for those who facilitate pirates.
    It also provides working with State laws and recognizes 
those State laws, and it streamlines the FCC's enforcement 
process.
    In conclusion, in 2015, 33 Members of Congress asked the 
FCC to increase its pirate radio enforcement. The FCC under 
Chairman Pai have done that. But they need more tools.
    The fundamental purpose of the FCC is to manage the 
spectrum and avoid interference.
    I thank you and look forward to your questions.
    [The prepared statement and slide presentation of Mr. David 
Donovan follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mrs. Blackburn. The gentleman yields back.
    Mr. Gessner, 5 minutes.

                  STATEMENT OF ROBERT GESSNER

    Mr. Gessner. Good morning.
    Chairman Blackburn, Ranking Member Doyle, members of the 
subcommittee, my name is Robert Gessner.
    I am president of Massillon Cable TV, a small family-owned 
broadband and cable company serving 50,000 customers in five 
Ohio counties. Mostly, really nervous, as this is my first time 
testifying in any sort of venue.
    I also currently serve as chairman of the American Cable 
Association, which represents more than 700 small and mid-size 
companies, a mixture of municipalities, telephone companies, 
electric companies, rural co-ops, as well as cable TV 
operators.
    The majority of ACA members have fewer than 1,000 
customers, fewer than 10 employees, and almost none have an 
attorney on staff.
    Despite our small size, we make large investments in our 
networks to provide critical connectivity to the communities we 
serve--typically, rural communities.
    And I thank you for inviting me to testify about H.R. 3787, 
the Small Entity Regulatory Relief Opportunity Act, or SERRO.
    SERRO is a narrowly tailored bipartisan bill whose purpose 
is to streamline the process by which deserving small 
communications entities may request--and I stress that word 
request, regulatory relief.
    Many regulations at the FCC are one-size-fits-all. Because 
of our limited size, small entities often are not the source of 
the specific harms that the FCC is targeting. Now, in theory, 
the FCC waiver process gives small entities an opportunity to 
show good cause for an exemption or a delay in the application 
of a one-size-fits-all rule.
    But, in practice, deserving small entities often are 
deterred from seeking relief because of the administrative 
costs and the uncertainty of the waiver process.
    To give you just one example, in 2010, my company, which 
had recently converted to an all-digital platform, went to 
considerable expense to petition the FCC for a waiver of 
certain analog-based technical performance testing 
requirements.
    It was not until last September, more than 7 years after we 
filed our waiver request, that the FCC finally addressed our 
concerns.
    Now, the goal of SERRO is to ensure that the FCC is more 
attentive to small entities' well-founded need for exceptions 
to or relief from one-size-fits-all rules and it accomplishes 
that in three provisions.
    First, SERRO directs the FCC to adopt streamlined 
provisions to reduce the administrative burdens faced by small 
entities that file waiver petitions and to expedite the 
resolution of those petitions.
    Second, SERRO clarifies that Congress intends for the FCC, 
as part of its mandated triennial review process to consider 
the impact of its rules on any and all small entities within 
its jurisdiction.
    SERRO further instructs the FCC to modify or repeal the 
application of particular regulations to small entities where 
the commission determines there is good cause to do so.
    And third, SERRO establishes an automatic referral period 
of at least 1 year in the application of most new regulations 
to small entities, subject to exceptions for rules that address 
public safety concerns or that reduce waste, fraud, and abuse.
    If SERRO had been in place in 2010, my company would not 
have been subjected to 7 years of regulatory uncertainty, 
waiting for the FCC to act on our petition. In fact, we might 
not have needed to go to the expense of filing the petition in 
the first place.
    I want to stress that SERRO is focused only on the 
procedures by which small entities can request regulatory 
relief. That's the O in SERRO--an opportunity. Nothing in the 
bill would change the substantive legal standard for obtaining 
that relief.
    And I also want to emphasize that while I am here 
representing the American Cable Association, SERRO is not a 
cable-only bill. SERRO will apply to and has the support of 
small entities in every sector of the communications industry, 
as evidenced by this letter that was sent to Chairman Walden.
    Now, in conclusion, I do want to express my thanks to 
Representatives Latta and the absent Mr. Schrader to move SERRO 
forward.
    As Representative Latta stated in this introduction, while 
small businesses are the engines of the economy, generating two 
out of three new jobs, they also are the most susceptible to 
burdensome regulations that harm their ability to grown, 
expand, and hire new employees.
    ACA looks forward to working with you on this sensible and 
important piece of bipartisan procedural regulatory relief 
legislation and be happy to answer any questions.
    Thank you.
    [The prepared statement of Mr. Gessner follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  
    Mrs. Blackburn. The gentleman yields back.
    Mr. Madigan, 5 minutes.

               STATEMENT OF JOHN H. MADIGAN, JR.

    Mr. Madigan. Madam Chairman and Ranking Member Doyle, thank 
you very much for inviting the American Foundation for Suicide 
Prevention to testify this morning.
    My name is John Madigan. I have the honor and privilege of 
being the association's chief public policy officer. We are a 
nonprofit health agency about 30 years old and we are organized 
in all 50 States, and I believe my team has provided all 
members of the subcommittee with fact sheets that illustrate 
the suicide issue in your particular State.
    I am also here to testify about H.R. 2345, the National 
Suicide Prevention Hotline Improvement Act of 2017. We want to 
thank, obviously, Representative Chris Stewart from Utah and 
Representative Eddie Bernice Johnson from Texas for her 
leadership on this important issue, and the other cosponsors in 
the House, which is somewhere around seven cosponsors.
    Let me speak frankly. Suicide is now the tenth leading 
cause of death in our country for adults age 18 to 64. For 
every one suicide, there are 25 suicide attempts.
    The annual age-adjusted suicide rate is 13.42 per 100,000 
individuals. After adjusting for differences in age and sex, 
risk for suicide is 19 percent higher for male veterans than 
for U.S. non-veteran male adults.
    Risk is 2.5 times higher among female veterans when 
compared to U.S. non-veteran women. Men die by suicide three 
and a half times more than women and white males account for 
seven out of 10 deaths in 2016.
    Suicide is often the result of unrecognized and untreated 
mental illness. Get this. One in four Americans have a 
diagnosable mental illness but only one in five are seeking 
professional help for this condition.
    Suicide tends to be the highest when multiple risk factors 
or precipitating events occur in an individual with mental 
illness.
    Despite public perception, most people with mental illness 
do not die by suicide. Mental illnesses such as depression, 
bipolar disorder, alcohol and drug dependence, post-traumatic 
stress, and traumatic brain injury may create the underlying 
risk that, when combined with life stressors such as transition 
from military life, job loss, relationship, financial, or legal 
problems increase risk.
    There's good news. There's a grass roots movement that's 
now being formed, like it has for many other disease groups.
    Our movement is being catalyzed by both survivors of 
suicide loss--I lost my younger sister, Nancy, 21 years ago 
when she was 37--and also the emerging voices of those that 
have what we call the lived experience--those people who have 
survived their own suicide attempts.
    So as I said earlier, I am here today to talk about why 
H.R. 2345 could be a game changer for our national public 
safety net. It was discussed by Chairman Pallone. Essentially, 
the FCC is going to look into the possibility of converting the 
1-800-273-TALK number into an easy-to-remember three-digit 
number like 9-1-1.
    It will require SAMHSA to study the effectiveness of the 
current system and also to assess how veterans are being helped 
in this system.
    Finally, the study will provide cost estimates and resource 
needs for increasing Federal support for phone hotline, chat, 
and text.
    To hear some important facts, a national easy-to-remember 
single point of access free, anonymous, and toll-free for all 
American residents is necessary to provide a health safety net 
for all persons in the United States.
    The experience of SAMHSA's national suicide prevention 
lifeline indicates that a national hotline number has been 
essential in addressing this public health crisis.
    Since 2005, the lifeline has served more than 11 million 
callers. In 2017, the national network answered 2 million 
calls. According to independent evaluators of the service, 75 
percent are non-suicidal and 25 percent are suicidal.
    So the bottom line, in closing, is that this legislation is 
critically important. When my 25-year-old daughter texted me 
this morning and asked me, ``Daddy, why are you testifying 
before the Communications and Technology Subcommittee?'' I 
said, ``Preventing suicide is all about communication, and in 
the 21st century it's all about technology.''
    So I will be glad to answer any questions you have.
    [The prepared statement of Mr. Madigan follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. We thank the gentleman.
    Ms. Morris, you're recognized for 5 minutes.

                   STATEMENT OF SARAH MORRIS

    Ms. Morris. Thank you, Chairman Blackburn, Ranking Member 
Doyle, and subcommittee members for the opportunity to testify 
today at this legislative hearing on four communications bills.
    My name is Sarah Morris and I represent New America's Open 
Technology Institute, or OTI, where I am the director of open 
internet policy.
    New America is a nonpartisan nonprofit civic enterprise 
dedicated to the renewal of American politics, prosperity, and 
purpose in the digital age.
    OTI is a program within New America that works at the 
intersection of technology and policy to ensure that every 
community has equitable access to digital technology and its 
benefits.
    OTI promotes universal access to communications 
technologies that are both open and secure, using a multi-
disciplinary approach that brings together advocates, 
researchers, organizers, and innovators.
    Our primary focus areas include net neutrality, broadband 
access and adoption, surveillance and security, and consumer 
privacy.
    My testimony will focus on concerns related to one of the 
four bills under consideration today: H.R. 3787, or the Small 
Entity Regulatory Relief Act, which I will refer to as SERRO.
    OTI's concerns are fourfold. First, it is not clear that an 
immediate problems exists that this bill would effectively 
solve.
    Indeed, against the backdrop of the current heavily 
deregulated landscape, the proposed bill seems particularly 
unnecessary.
    Second, to the extent that a need for waivers from or 
exemptions to certain regulations exist, numerous processes for 
securing them also already exist at the Federal Communications 
Commission.
    Third, the definition of small entities in the bill is 
unclear. Finally, the proposed triennial review process reforms 
would create a high degree of confusion and uncertainty at the 
commission.
    I've submitted a detailed written testimony to the 
subcommittee already and I will use my time here to briefly 
explain each of those four concerns.
    Regulations of general applicability are the standard in 
Federal regulatory policy making, and for a good reason. The 
point of consumer protection laws, from telecommunications to 
food service to health care, is to protect all consumers from 
harmful practices, not just consumers of the biggest entities.
    All consumers are entitled to the protections of Federal 
telecommunications laws. There may be instances where waivers 
from certain regulations under the Communication Act are 
appropriate. As I will discuss shortly, there are mechanisms 
for addressing the need for specific waivers.
    However, neither Mr. Gessner nor the bill's cosponsors have 
demonstrated widespread and significant harms that would be 
most effectively remedied by the reforms proposed in SERRO.
    It is unclear why the triple play proposed in the bill, an 
expedited waiver application process, a near blanket exemption 
from all future regulations for a period of 1 year and an 
expanded triennial review of the applicability of all 
regulations to small entities as necessary.
    Indeed, the commission already provides numerous avenues of 
recourse for a small business that believes an existing or 
proposed regulation is unduly burdensome.
    The most obvious and fundamental opportunity to discuss 
burdens on small businesses is to engage with the commission 
during the notice and comment periods that are required each 
time new rules are created.
    In those proceedings, the commission has opportunities to 
hear from multiple perspectives on the parties' assertion of 
burdens and can appropriately weigh those burdens with the need 
for the regulations in question.
    In addition, as the bill itself acknowledges, the 
commission's rules already allow the commission to waive 
specific requirements of the rules on its own motion or upon 
request.
    The best approach for ensuring certainty and reducing 
administrative burdens is to use existing processes to identify 
the need for a narrow waivers when a need for such a waiver is 
clearly demonstrated.
    This bill, however, uses an arbitrary definition of small 
entity that creates considerable confusion and shifts the 
burden of the defending the applicability of a given regulation 
onto consumer groups and other parties every single time a 
regulation is considered.
    Not only is this a significant administrative cost to bear 
on its face, the problem is compounded by the fact that the 2 
percent market share threshold will need to be defined every 
single time a regulation is considered.
    As we have seen in antitrust analysis, this type of market 
share definition is entirely dependent on how a given market is 
defined. As telecom industries become more integrated and 
services evolve, defining relevant market could become even 
more difficult.
    Finally, the modifications to the 257 triennial review 
requirement proposed in this bill could create significant 
administrative burdens for consumer groups and other parties.
    As written, the amendments to 257 would allow the 
commission to, once the bill is enacted, re-litigate every 
single regulation currently on the books at the commission.
    This reevaluation would require multiple proceedings to be 
reopened and create enormous bureaucratic strain throughout the 
communications part as well as uncertainty for consumers.
    Each of the three proposals in SERRO raise concerns. Taken 
together, however, they represent a fundamental shift in 
burdens and advocacy before the Federal Communications 
Commission.
    I urge the subcommittee to reject H.R. 3787.
    [The prepared statement of Ms. Morris follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentlelady concludes her statement.
    At this time, that concludes all of our opening statements. 
We are going to move to questions. I do want everyone to be 
mindful--it looks like 12:15 to 12:30 will be the next vote 
series, and I want to move through as many of these questions 
as we can.
    So, Mr. Shimkus, I will begin with you. You're recognized 
for 5 minutes for questions.
    Mr. Shimkus. Madam Chair, thank you. You're very kind.
    Let me--let me go to Tim, and I want to ask Mr. Gessner 
this question, because I've just been wrestling with it.
    So we want competition. We want deployment. You're in the 
rural areas--very difficult. You're trying to get 5G in.
    I keep hearing from my local municipalities the concern 
that their input as to siting for 5G--they're not going to--you 
know, they'll weave a story. We've got this great park. We 
don't want a refrigerator-sized 5G sitting in there.
    So talk me through this on competition 5G and how do we 
make sure that the concerns of local communities are still, at 
least, listened to?
    Because a lot of this is these regulatory burdens get it 
moved, right?
    Mr. Tim Donovan. Thank you, Congressman, and you're 
probably also hearing from them about how they want to be one 
of the first smart cities and want to make sure that all of 
your constituents are able to connect to the latest services. 
So you do need to have the infrastructure to provide that.
    We are working together with ways to look at it not as a 
zero sum gain but how can we make the application process both 
easier for carriers for deploying this as well as reduce the 
resources needed by municipalities to review.
    If there's some low-hanging fruit of places that make sense 
to streamline the review then that also means one less 
application--a couple less hours that somebody who works for 
the municipality has to spend reviewing that application.
    Mr. Shimkus. So, Mr. Gessner, obviously, from the rural 
cable perspective, there also could be, you know, debates. You 
have already done negotiations with local communities on right-
of-ways and wires.
    And talk to me about the competitive pressure or what would 
be the response as there is a great desire to also move 5G in 
the areas and the local communities have been able to--the old 
historic models--what, the historic model is the cable company 
comes in, they negotiate, there's fees, they work with the 
local communities.
    5G could disrupt the way this paradigm has been 
established. But a lot of us want the competition.
    So can you talk through that, from your perspective?
    Mr. Gessner. Good question. We haven't had a great deal of 
interaction between the 5G proponents and traditional cable 
companies, at least not in our size markets.
    We look forward, actually, to working with the 5G operators 
because we know they're going to need a lot of back haul. When 
you have got a 5G transmitter every few hundred feet, it has to 
connect to something.
    So companies like mine are certainly prepared to work with 
them through our high-capacity fiber networks to bring all of 
that 5G data back without having to have more repeater towers 
and that sort of thing.
    Mr. Shimkus. Great. And I was going to spend time asking 
you to talk about some of the other challenges and problems you 
have.
    But in lieu of the time, Madam Chair and everybody else 
wants to ask questions. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Doyle, 5 minutes.
    Mr. Doyle. Thank you, Madam Chair.
    Under the Regulatory Flexibility Act, Congress created an 
independent office of advocacy within the Small Business 
Administration, and the job of that office is to go out and 
advocate before Congress, the White House, and Federal agencies 
on behalf of small businesses in America.
    The Office of Advocacy has come on against regulation that 
harms small businesses like the FCC's order to deregulate 
business data services.
    Much like the FCC's rollback of business data protections, 
I am worried that this small entity bill would actually hurt 
small businesses.
    I want to ask you, Ms. Morris, do you believe that H.R. 
3787 could unfairly disadvantage some small businesses over 
others?
    Ms. Morris. Sure. I thank you, Ranking Member, for the 
question.
    And I certainly think that there is a high risk of harm to 
all types of entities, whether it's consumers, other small--and 
consumers can include small businesses that are purchasing 
broadband from an entity that would be covered by this act.
    In the case of the net neutrality protections where a 
waiver was granted for certain parts of the rules, a more 
automatic and sweeping waiver in that case would have resulted 
in many small businesses that rely on an open internet access 
to be harmed by the lack of that access in certain instances.
    We want all consumers to have access to the protections 
afforded by the commission, not just those of the largest 
entities.
    Mr. Doyle. So let me ask you, under this bill, the 
threshold for expedited small business relief is set at 2 
percent or fewer of the consumers receiving such subscription 
service in the United States. It seems like a vague standard 
but also a rather overly inclusive one as well.
    In the video market, for example, 2 percent of the market 
would be over 1.6 million customers, and when you look at a 
couple of companies that fall into that range, they have annual 
revenues of over $1.5 billion.
    That doesn't seem like a small business to me. Does that 
seem small to you? And what effect would exempting these 
companies from the FCC's rules have on consumers?
    Ms. Morris. We certainly agree that the definition is both 
unclear and potentially much too large and as you point out, 
Ranking Member Doyle, this--implementation of this bill has the 
potential to remove protections for millions of Americans 
across the country--protections that the FCC would have 
otherwise be deemed necessary in a thorough rulemaking process.
    Mr. Doyle. Yes. I think more to the point, the FCC 
interacts with a wide range of small businesses from radio and 
TV stations, voice video, data providers, device manufacturers, 
wireless licensees, and many of the FCC's rules that these 
businesses comply with are not only tailored to the size of 
those businesses but also to ensuring that these entities 
uphold their obligations under the Communications Acts.
    So what effect would granting these wide-ranging waivers 
have on industry sectors under the FCC's jurisdiction?
    Ms. Morris. We think it would create a significant 
uncertainty as we try to figure out which application--which 
regulations apply to which entities--which ones apply to 
other--or don't apply to other entities.
    And meanwhile, I will just repeat that consumers in those 
industries will be harmed in the process when those protections 
don't apply to their providers.
    Mr. Doyle. Thank you.
    Madam Chair, in the interest of time, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Lance, 5 minutes.
    Mr. Lance. Thank you, Madam Chair.
    To the distinguished panel, thank you all for being here.
    Mr. Donovan, can you comment on some of the limitations of 
the FCC's current enforcement tools against pirate radios? Have 
you seen issues with the commission's ability to shut down 
pirates in your role as president of New York Broadcasters?
    Mr. David Donovan. Thank you, Congressman Lance.
    Yes. I think that there is some limitations and those 
limitations now are based on the statute. Let me give you some 
examples.
    Under the Communications Act, the fine, for example, for an 
entity not licensed by the FCC is, roughly, $10,000. Pirate 
radio operators--this is big business, and a $10,000 fine is 
absolutely nothing. When you actually look at someone who's 
been violating the law literally for decades, this is just a 
cost of doing business.
    The second piece is is that in order to get a seizure order 
or an order to enforce the fine, the FCC is required to go 
through the--through the U.S. attorney's office. They are busy 
on things like terrorism, drug interdiction, and this becomes 
the fourth level issue.
    What I think--and I worked at the commission for 10 years--
I think what we really need to do is to give the FCC the 
authority to go to court to defend its own orders and also to 
get seizure orders as well.
    The FCC currently has the authority to go to the U.S. Court 
of Appeals to defend its orders at the appellate level. It 
seemed it would make sense to get rid of the number one issue, 
which is would love to help you but the U.S. Attorneys Office 
just isn't interested.
    Mr. Lance. Thank you. I am working on this issue, as you 
know, and the PIRATE Act and I want to continue to work with 
you and the other distinguished members of the panel, and I 
certainly agree with you.
    And Madam Chair, I ask unanimous consent to submit the New 
York Broadcasters' report on pirate radio into the record.
    Mrs. Blackburn. Without objection.\1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108059.
---------------------------------------------------------------------------
    Mr. Lance. Thank you, and I yield back 3 minutes.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Matsui, you are recognized.
    Ms. Matsui. Thank you very much, Madam Chairman.
    Since its creation in 2004, the Spectrum Relocation Fund 
has become a critical tool for Federal agencies relocating or 
sharing spectrum for wireless broadband use.
    In 2015, Congress made improvements to the SRF that allowed 
agencies to use funds in SRF to support engineering research 
that could lead to the repurposing of spectrum for commercial 
use.
    The improvements have worked. Last month, NTIA and DOD 
identified 100 megahertz of spectrum that could potentially be 
repurposed.
    However, current law limits how much of existing SRF funds 
can be used for this research and related activities. This has 
created an unintended situation that could prevent agencies 
from accessing existing SRF funds and potentially prevent more 
spectrum entering the commercial marketplace.
    I am working on legislation called the Spectrum Now Act to 
address this problem.
    Mr. Donovan--Tim--would you support this effort to ensure 
that we are maximizing the amount of spectrum that could be 
repurposed for wireless broadband use?
    Mr. Tim Donovan. Thank you, Congresswoman, and thank you 
for your leadership on these efforts. I think you are--it's a 
proven case model that it works and working with spectrum 
relocation fund to reallocate Federal spectrum for commercial 
use, your leadership on that issue led to the single highest 
grossing spectrum auction ever in the AWS-3 auction.
    So this money is clearly well spent. We absolutely support 
your efforts to continue that. You know, spectrum is something 
that we are not making any more of it. So if we can be more 
efficient then that research is money well spent.
    Ms. Matsui. Thank you.
    To successfully expand broadband access to the rural and 
remote areas of this country, broadband maps must accurately 
identify where service is and where it isn't.
    One of the most effective ways to get better maps is by 
collecting better standardized coverage data. I understand that 
a consensus proposal to get better mobile wireless coverage 
data was put forward as part of the Mobility Fund II Challenge 
Process.
    Specifically, that proposal suggested modelling 4G LTE 
coverage at download speeds of 5 megahertz per second at a 90 
percent cell edge probability under cell loading factor of 50 
percent.
    Mr. Donovan--Tim again--how can accurately modelling mobile 
broadband data help expand coverage?
    Mr. Tim Donovan. Thank you, and this has been an important 
issue going on, on making sure that we know where there is 
service and where there isn't so that we can direct funding 
where it's appropriate.
    One thing that is missing from that model that is included 
in Congressman McKinley and Congressman Walters' bill is also 
looking at signal strength.
    And while it gets technical quickly, it's important. We 
measure signal strength in decibel milliwatt loss, but a 
difference of only five leads to a difference of about a 100 
percent geographic coverage.
    In rural areas a difference of 10 we've developed 300 
percent geographic coverage. When you look at that, you know, 
while there was consensus to move forward before, the factors 
selected by the FCC produced this map that we now know from 
looking at it that it doesn't pass the test that you all know 
from your travels across your States that it's not the 
experience that your consumers are receiving.
    Ms. Matsui. OK. Well, thank you very much, and I yield back 
the remainder of my time.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Latta, you're recognized for five.
    Mr. Latta. Well, thank you, Madam Chair.
    And Mr. Gessner, when I travel around my district and meet 
with a lot of my business owners, especially the smaller 
business owners, they talk about the over regulations 
occurring, especially on the Federal side.
    And then also how that regulation affects your business and 
also a lot of times as legislators and then the regulators they 
don't really see the after effect of what happens.
    And I was wondering if you might be able to look, as a 
small business owner and also in telecommunications, if you can 
thing of some real-world examples where SERRO could have helped 
your business and, consequently, your customers.
    Mr. Gessner. Thank you for the question.
    I offered a brief explanation of my situation in 2010 
during my testimony. I will expand on it a little bit.
    We converted from an analog cable system to an all-digital 
system in 2010. We thought that was the right thing to do. We 
were well before everybody else and we went along with the 
broadcasters at the same time.
    Shortly thereafter, we realized that we could no longer 
complete analog testing as required by the FCC because we had 
no analog signals to test.
    So we requested a waiver from analog testing and it was 
supposed to--should have been very, very easy because there had 
already been one operator who had received a waiver from analog 
testing. So we thought just give me one of those.
    So we went to the expense. We went to the time. Produced 
the affidavits and all that sort of thing, and there were 
several, maybe a half dozen of us, who were doing the same 
thing at the same time.
    Radio silence. We didn't hear anything for 7 years, and 
what finally happened was the FCC changed the rules and told 
all of us that our petitions were moved.
    Now, if SERRO had been in effect then, we could have been 
those 7 years of regulatory uncertainty. If SERRO had been in 
place then, the FCC would have been through at least two 
triennial reviews and had recognized that analog testing by 
digital systems was something that had to be addressed and they 
could have addressed it and no waivers would have been--no 
waiver petitions would have been required in the first place.
    Mr. Latta. Well, thank you very much, Madam Chair.
    And I will yield back the balance of my time.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Eshoo, you're recognized.
    Ms. Eshoo. Thank you, Madam Chairwoman, and thank you to 
each of the witnesses. It's good to see you, and I think that 
you all did a good job in presenting what you want to present.
    To Ms. Morris, in your written testimony you noted that the 
small entity bill, 3787, is vague in its definition of a small 
entity.
    Now, some entities may have very few subscribers, in the 
thousands. But the language also applies to companies with 
millions of subscribers, and I wouldn't consider millions of 
subscribers as small.
    If this were to become law, well, first of all, I think 
it's an ambiguous definition, obviously, because millions is 
not small.
    So if this were to become law, what's the outcome of this? 
What would actually take place?
    Ms. Morris. Thank you, Congresswoman Eshoo. I appreciate 
the question.
    And on this issue of the definition of small entities, I 
would note that the bill may seem like it clearly and cleanly 
defines what a small entity is.
    But it creates worry that gamesmanship could be used to 
sort of water down the definition and that that can change over 
time and be very costly and complicated to determine on a 
recurring basis.
    And because, as you point out, that the range of potential 
entities covered in the definition is so expansive, as I noted 
earlier, we risk disenfranchising millions of consumers from 
the important consumer protections that the commission 
determines that they need once they're in----
    Ms. Eshoo. Because tied to this are what you just 
described, correct?
    Ms. Morris. Yes. Essentially, what this bill would do would 
be every time the commission makes a determination that a 
regulation is needed at a general level, what would be 
otherwise a regulation of general applicability that there 
would be essentially an automatic waiver for a year's time for 
small entities as defined, broadly, in the act.
    And so for that period of time those customers and 
consumers would be--would not have access to the protections 
afforded to those who were customers of larger companies.
    Ms. Eshoo. I think that this is an area of this bill that 
really needs to be tightened up because otherwise it can swing 
one way or another.
    One way it could be determined that small is in the 
thousands and waivers can be granted for those that have 
millions.
    It just doesn't--it would have been better if they just 
said ``waive everything,'' because that seems to be the intent.
    In your testimony, you also said, quote, ``the point of 
consumer protection laws is to protect consumers from all 
harmful practices, not just those from the biggest entities.''
    It seems to me that this is a Trojan Horse, because it's 
going to hamstring the FCC's ability to do the job that's been 
laid out relative to the protection of consumers.
    Again, small companies would not have to play by the rules 
that everyone else has to play by in terms of the--how it's 
defined or not defined in the language of the bill.
    Can you describe if there's an alternative to burden? Is 
there significant consumer risk there as well?
    Ms. Morris. I am sorry. If there's an alternative burden--
if a new burden is placed on--I think that, you know, there is 
the sort of immediate risk of the what happens when the 1-year 
waiver is in place. I think that there is also a concern that 
this will just overly complicate rulemaking processes at the 
FCC.
    We are going to have to pre-litigate what counts as a small 
entity in every proceeding. We'll probably have to litigate 
after the fact as well, and meanwhile there will be less focus 
on the--making sure that we get the rules right so that they 
don't create the types of situations that----
    Ms. Eshoo. Well, I think that there is always a legitimate 
case to be made for streamlining. But I think that this is 
going to turn into a hairball. I really do. And I would just 
suggest to the authors that they tighten up the language 
because the definition is so wide a Peterbilt truck can drive 
through it.
    Thank you.
    Mrs. Blackburn. All right. The lady yields back.
    And if everyone, I am told, can try to keep it 3 minutes or 
less, we should be able to dismiss our panel before we go for 
votes.
    Mr. Olson, you're recognized.
    Mr. Olson. I thank the Chair.
    Welcome to our five witnesses. My comments and questions 
are for you, Mr. Madigan, on suicide and H.R. 2345.
    Like you, suicide has hit me directly as a Congressman and 
even in my family.
    In 2014, a Marine veteran, Casey Owens, killed himself in 
Colorado. He was 32 years old. I met Casey in 2007 in our 
hometown of Sugarland, Texas.
    He had lost both legs. PTSD, TBI--when a small Humvee hit a 
tank mine, the thing flew up 30 feet in the air. He found peace 
in Colorado, snow skiing. He was a competitive monoskier. His 
goal was to ski for our country in the Paralympics.
    But he never found true piece. He was on CBS News in 2012 
and he responded this way, quote, ``I really don't think I will 
ever be free. I don't think the burden of war is ever gone,'' 
end quote. And, sadly, it wasn't.
    And now my family. When I was in high school, my mom got a 
master's in family therapy for kids. She met a little girl 
named Sherri Silvas at the Harris County Youth Village.
    Sherri had been abused by her father. Her mom was 
worthless. She was in the gangs, drugs, and she also had a 
natural chemical imbalance. All those came together to make her 
regularly think about committing suicide.
    Mom became very close to Sherri. In fact, she became a de 
facto fourth child in my family. But she was a handful. She 
disappeared for three months. My dad found her halfway across 
the country. He brought her back.
    But 2 years after that, Sherri took her own life, as well. 
My mom, my dad, and my entire family are still haunted we 
couldn't stop her from taking her own life.
    And in your written testimony you said that having a verbal 
counselor--a line to call a person--is so effective that it 
actually reduces suicides and their feelings of hopelessness.
    Would that have helped Sherri, and how important is that 
number to have, that 3-1-1 number?
    Mr. Madigan. Well, Congressman, first of all, I am sorry 
for all of your experiences, and I hope you find some closure 
and peace.
    And I think the legislation that we are looking at today is 
one piece of the puzzle in that, the data that we have, 25 
percent of the callers have some suicidal ideation.
    So they do get immediate help in terms of talking out what 
is currently going on.
    Clearly, with veterans, there's a whole host of--as I 
described in my oral statement but more detailed in my written 
statement--the life stressors that then set off a preexisting 
mental health condition.
    So that's the bottom line, is that we, as a nation, need to 
more quickly recognize someone's mental illness situation, much 
like you would someone having a diabetic attack or having heart 
disease, and then--I love to talk about the face when you go 
ask a 5-year-old, you know, what's the biggest organ in the 
body and they normally say the heart.
    And I say, well, wrong--the biggest organ in the body is 
the brain. And if your heart is broken, you gp to the heart 
doctor to get it fixed. If your brain is broken, you need to go 
to the brain doctor.
    So it's part of that process, and we believe a three-digit 
number would make access for counseling more readily available.
    Mr. Olson. Yes, and hopefully DOD can use that three-digit 
number, because there has been a report by JO that says, hey, 
you guys were overwhelmed by some calls--people aren't getting 
the therapy they need via phone call.
    So hopefully this helps them, gives them a chance to get to 
guys like Casey.
    Mr. Madigan. Yes. The phone calls from this January to now 
versus January last year have increased 60 percent. So the need 
is clearly there, sir.
    Mr. Olson. I am sorry for your loss as well.
    Madam Chairman, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. McNerney, you're recognized.
    Mr. McNerney. I thank the Chair.
    As I mentioned earlier in my opening statement, I am 
concerned about the larger trend we are seeing with consumer 
protections across the board being eliminated from my 
constituents.
    Ms. Morris, what protections do consumers currently have 
with respect to their online privacy and the information that 
is shared with their broadband provider?
    Ms. Morris. None. None from the Federal Communications 
Commission. They were repealed.
    Mr. McNerney. OK. What protections do consumers have with 
respect to their broadband provider keeping their data secure?
    Ms. Morris. I do less data security work. But I would 
imagine very little, because the work I did was in the 
broadband privacy.
    Mr. McNerney. OK. Well, what about with respect to 
consumers' access to information being--online being throttled 
or blocked? Will there soon be any protections left for 
consumers from blocking and throttling?
    Ms. Morris. Once the 2017 December order takes effect, no.
    Mr. McNerney. Well, I am certainly open to finding ways to 
streamlining regulatory compliance for small business but I am 
worried that the SERRO bill would move us further in the 
direction of eliminating safeguards for consumers, many of 
which have already been eliminated.
    Ms. Morris, in your written testimony you stated that 
triennial review process would create a high degree of 
confusion and possibly legal uncertainty at the commission. Can 
you explain how a high degree of confusion at the commission is 
likely to impact consumers?
    Ms. Morris. Sure. And what I mean by that is that once the 
bill would take effect there is this--every 3 years the 
triennial review but there's also the initial review when it 
seems like it would be essentially open season on any 
regulations in the FCC's currently on the books. There's no 
sort of limitation. It would be a retroactive review as part 
of--I can tell from the text of their bill.
    So that would mean that what small protections remain for 
consumers in this deregulatory environment at the commission 
would be under scrutiny once again, presumably with new 
proceedings open to reconsider the application of all those 
regulations, which could tie up the commission's hands for 
months or years on end.
    Mr. McNerney. Thank you.
    Mr. Madigan, in written testimony your organization 
submitted it was noted that veterans, in particular male 
veterans, are more often at risk of suicide.
    In my experience serving in the Veterans Affairs Committee 
I found that veterans sometimes feel isolated when they return 
home. Do you think that's one of the contributing factors?
    Mr. Madigan. Absolutely. Isolation, alcohol, access to 
guns--I mean, all those kinds of things are something that 
contribute to veterans contemplating suicide.
    Mr. McNerney. Do you think that making sure veterans have 
access to 21st century infrastructure like broadband could help 
our veterans?
    Mr. Madigan. Well, as I said at the closing of my oral 
statement, I think yes, communication is the key. Talking about 
mental health issues like any other health issue and if 
technology can be increased and broadened I believe that's--our 
organization believes that's the way to go.
    Mr. McNerney. Good. And I thank the Chair, and I will yield 
back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Bilirakis, and I remind everyone if we can keep it to 3 
minutes, then we'll probably be able to gavel out.
    Mr. Bilirakis, you're recognized.
    Mr. Bilirakis. Thank you, Madam Chair.
    Mr. Madigan, as vice chairman of the Veterans Affairs 
Committee, the full committee, I know the veterans are a 
uniquely situated population and their experiences and 
challenges.
    The last OIG report on the veterans crisis line identified 
a number of problems, including a considerable volume of calls 
going to voicemail, which is unacceptable.
    Since some time has passed since then, I agree with the 
intent of H.R. 2345 to study how the needs of veterans are 
addressed by the National Suicide Prevention Hotline--the 
lifeline.
    In your testimony, you say that one in three callers to the 
suicide hotline are veterans or members of the military 
families because they suffer as well.
    Can you explain the unique challenges that these callers 
face and in your position have you seen specific issues related 
to a call responder's ability to address these needs through 
the hotline?
    In other words, also if some of the responders--are the 
veterans? Can they identify with the veteran?
    Mr. Madigan. Yes, that's a great question.
    When you call 1-800-273-TALK and press 1, you're 
immediately handed over to a peer-to-peer counseling service 
where veterans who have been through the same experiences that 
most callers have been through are there.
    So I think it's an awesome program. The budget needs to be 
increased. The number of counselors need to be increased and, 
clearly, with the fact that, sir, that we lose anywhere from 18 
to 22 veterans a day that we know of----
    Mr. Bilirakis. That we know of. Exactly. Yes.
    Mr. Madigan. That we know of--that's a major problem. So we 
are committed. Again, that's why we support this legislation, 
to look at the whole picture, see what's working.
    But the bottom line, when Orrin Hatch called me last May to 
talk about this bill, I said, Senator, it's a great idea, but 
if you make it easier to call and there's no one there on the 
other end to answer the call or they're not competent to answer 
the call then that's a big problem.
    Mr. Bilirakis. So a veteran can speak--a combat veteran can 
speak to a combat veteran. Is that correct?
    Mr. Madigan. Absolutely. Yes, sir.
    Mr. Bilirakis. Was in a similar situation?
    Mr. Madigan. More and more any of the veteran hotlines that 
I am aware of employ peer-to-peer counsellors.
    Mr. Bilirakis. OK. I would like to speak with you on that.
    Mr. Madigan. Yes. I will also tell you about something. 
Let's talk offline about the--that's for warriors out of New 
Jersey, which is Rutgers University sponsors it and it's 
upstream counselling of veterans.
    So before someone gets to a bridge or puts a gun in their 
mouth, it helps veterans when they might lose their home, 
they're having personal problems or financial problems.
    Mr. Bilirakis. OK. I am going stick with the 3 minutes. But 
the three-digit number is obviously more--it's easier to 
remember----
    Mr. Madigan. Yes.
    Mr. Bilirakis [continuing]. As opposed to the 1-800 number.
    Mr. Madigan. It's 1-800-273-TALK, but I imagine, you're in 
the middle of a suicidal ideation, unless it's written 
somewhere, it's hard to remember.
    So I even think a 5-year-old knows to dial 9-1-1 when they 
need to call the police, and we also think that having a 
dedicated number like 3-1-1 or whatever it might be would 
reduce the burden on 9-1-1 and get people to the right location 
the first time.
    Mr. Bilirakis. Agreed.
    Thank you. I yield back, Madam Chair.
    Mrs. Blackburn. Gentleman yields back.
    Mr. Engel, you're recognized.
    Mr. Engel. Thank you, Madam Chair.
    Mr. David Donovan, nice to see New Yorkers here. Welcome to 
Washington.
    I am interested in the enforcement requirements of the 
PIRATE Act.
    Mr. David Donovan. Yes, sir.
    Mr. Engel. You testified that pirate radio stations 
outnumbered licensed stations in some major markets and, as in 
understand it, the draft legislation in front of us today would 
require, and I quote it, ``sustained enforcement and attention 
on pirate broadcasting,'' unquote, including the requirement 
that the FCC conduct pirate radio enforcement sweeps in some 
markets.
    So to your knowledge, has any agency--DOJ, FCC, or any 
other--conducted regular pirate radio enforcement sweeps in the 
past? Do you have a sense for the amount of time, money, and 
personnel these sweeps would require?
    Mr. David Donovan. To my knowledge, the Department of 
Justice had not done any sweeps. The FCC may have done one.
    In terms of time to do a sweep, for example, it took us 
four days to find 76 pirates in New York City and in northern 
New Jersey.
    So the actual amount of those sweeps does not take that 
amount of time, and in fact, with technology you can actually 
reduce the amount of time that you need.
    For example, there are pirate--there are radios that are 
currently on the market that you connect to the internet and 
you place them throughout New York City or northern New Jersey 
and you can sit in the FCC's office in Washington or in New 
York and literally turn the dial and you know what stations you 
have licensed and you will be able to hear what stations aren't 
licensed.
    That will tell you, depending on the location of where that 
radio is, that we know we have 30 pirates near Flatbush or we 
have some in the Bronx.
    What it does is by using technology in a smart way we'll 
actually reduce the ability or reduce the burdens that are 
imposed by doing sweeps.
    But, frankly, we've done sweeps--I've done four sweeps over 
the last several years and, again, I found 76 pirates in four 
days. So it's not--the burden of doing the spectrum sweep is 
really not--it can be done, and the FCC has the capability and 
equipment to do it.
    And, sir, to be blunt, I will be more than happy work with 
the Federal Communications Commission to help get those sweeps 
done.
    Mr. Engel. Thank you.
    Ms. Morris, let me ask you a quick question. I think you 
point out something really important in your written testimony 
regarding the small entity regulatory bill.
    The Paperwork Reduction Act and the Regulatory Flexibility 
Act already requires the FCC to contemplate the effects of new 
protections on small businesses and there is already a number 
of opportunities for small cable or phone companies to get 
waivers under the FCC's procedures.
    So, in your view, are there too few avenues for small 
business to be accommodated in FCC proceedings?
    Ms. Morris. It is my view that there are not too few--that 
there are sufficient avenues already at the FCC. I am 
sympathetic to situations where a waiver, as in Mr. Gessner's 
case in his testimony, was not able to be achieved in a timely 
fashion.
    We would simply advocate for a more surgical solution to 
those specific problems rather than the blunt tools that are--
would be employed under SERRO.
    Mr. Engel. Thank you. Thank you, Madam Chair.
    I yield back my time.
    Mrs. Blackburn. Thank the gentleman.
    Mr. Johnson, you're recognized. Three minutes.
    Mr. Johnson. Thank you, Madam Chairman.
    Mr. Gessner, first of all, thanks for what you do in your 
role as the president of Massillon Cable. You serve a large 
number of people in one of my counties of 18, so I appreciate 
that.
    I saw in your comments that you highlighted one example 
where the waiver process did not work in a timely fashion for 
you. Do you have other statistics or insights that you could 
share with us about that dynamic?
    Mr. Gessner. Thank you. Thank you for your question.
    Yes, I probably have four or five current examples that 
would probably be more anecdotal than anything else. But by way 
of description, I would refer to a staff report that was issued 
to this committee in 2011 and it was entitled ``The Staff 
Report on Workload at the FCC.''
    And part of their conclusion was, and I quote, ``the 
commission faces significant challenges in its work including a 
significant backlog of unanswered petitions,'' and they went on 
to note that more than 5,300 petitions, which was 20 percent of 
the total petitions at that time, had been at the FCC for more 
than 2 years, and that more than 3,000 petitions had been 
pending before the FCC for more than 5 years.
    And I think that's--it speaks volumes to the ability of 
small entities who don't have on-staff attorneys to keep after 
this process to see their petitions for needed relief through 
to a conclusion.
    Mr. Johnson. And to give our Members and the American 
people some idea of what that means on the business side, I am 
told that this cost can be up to $50,000 per year for a small 
company that, while they're awaiting resolution.
    So you have got 5 years, that's $250,000 out of that small 
business. That's a--that's a big pot of money.
    Mr. Gessner. Correct. That came from a more recent petition 
request where a small telephone company applied for relief, and 
while it was granted in about 3 years, they estimated the cost 
to be about $50,000 a year, which for them is enough to hire 
another full time associate to actually serve customers.
    Mr. Johnson. OK. Well, thank you.
    Mr. Donovan, Mr. McKinley and Mr. Welch's bill, H.R. 2903, 
embodies the spirit of our effort to close the digital divide 
between rural and urban areas.
    What kind of data is necessary to close this divide on 
wireless broadband coverage?
    Mr. Tim Donovan. Thank you, Congressman.
    As you know, the data that's currently on hand is not 
reflecting the experience that you have. Your portion of Ohio 
on the map looks like it's covered with service.
    I think you have explained to me before how that's not the 
case.
    Mr. Johnson. We know that's not true.
    Mr. Tim Donovan. So what the bill does is it takes a look 
at the services that are available in urban areas and uses that 
as a measuring stick to see what services should be available.
    With that in place, you can then collect data based on the 
experience that other Americans are having to make sure that 
there's services available to everyone.
    Mr. Johnson. Well, thank you.
    I wish we had more time to talk about it. But I understand 
you need to yield.
    Thank you, Madame Chair.
    Mrs. Blackburn. I thank the gentleman for yielding.
    Mrs. Brooks for 3 minutes, please.
    Mrs. Brooks. Thank you, Madam Chairwoman.
    I am going to follow up on what my colleague from Ohio just 
talked about, Mr. Donovan. Let's go on and allow you to answer 
a bit with a bit more time.
    What kind of analysis does the FCC do as to whether or not 
its USF policies are meeting the goals of the program and do we 
have information on how effective USF program is in ensuring 
that comparable service that you just started to talk about?
    Mr. Tim Donovan. Thank you, Congresswoman, and thank you 
for joining the bill as a cosponsor. We appreciate the support.
    So right now, as Mr. Welch noted during his opening 
statement, there is no determination of what is reasonably 
comparable services.
    So the FCC collects data. They collect Form 477 data. They 
collected, in the case of mobility fund, a special one-time 
collection of data.
    But they're not then going back and applying any sort of 
report card over whether that's working, whether we are getting 
the job done.
    And so we are continuing to move forward and as we are 
talking frequently about 5G, there are places in the country 
that don't have any G.
    We have a saying at CCA that you have to keep up with your 
G's and when you start falling behind on the digital divide it 
gets harder and harder to catch up.
    That becomes even more important as so many different 
aspects of our society are connected.
    Mrs. Brooks. Is it fair to say if we--if we do resolve some 
of these issues involving the digital divide, whether it is the 
targeted support through the USF program and siting reform, 
access to spectrum, is it possible that those rural areas will 
jump to 5G?
    Mr. Tim Donovan. Well, you just nailed the three-legged 
stool of infrastructure, spectrum, and USF. Those are all 
important to solving these problems in rural areas.
    And yes, so carriers that are now looking at making sure 
you get to the 4G services or looking at how you can layer on 
top of that at the same time the 5G services, whether it's 
through technology or they're using different spectrum bands to 
make sure that the same services are available in urban areas 
and rural areas.
    Mrs. Brooks. Thank you. I will yield back the balance of my 
time. I know we are trying to get other Members in. Thank you.
    Mrs. Blackburn. I thank the gentlelady.
    Mr. Collins, you're recognized.
    Mr. Collins. Thank you, Madam Chair.
    My question is directed to David Donovan.
    Thank you again for your testimony today on pirate radio. 
This bill is going to create a database of licensed radio 
operators. I call that a commonsense kind of bill.
    I've been battling this for years, primarily with our 
former Chair Tom Wheeler, who, frankly, as Chair of the FCC did 
not seem interested at all.
    I can assure you Ajit Pai, our new FCC Chair, does take 
this seriously, to which I think we are going to see a big 
change.
    You know, obviously, these pirate radio operators are 
raising money. In some cases we have advertisers who have no 
idea it's a pirate radio so, again, our commonsense bill will 
let them easily scan through and say oops, I am not going to be 
sending money this way.
    So to keep this brief, I will just turn it over to you, 
David, to maybe comment on how this should work in helping 
deprive these stations of revenue.
    Mr. David Donovan. Congressman, and thank you for your 
leadership on the issue.
    I think one of the problems that you have in not just in 
New York but in Florida, in Boston, in Connecticut is that your 
illegal operators take on the aura of a legitimate station.
    As a result, advertisers, including folks buying political 
time, have no idea that they're buying advertising on an 
illegal station.
    I think it would be important for the FCC to create 
transparency, which would be to list all the stations in a 
market that are in fact licensed by the FCC.
    List all the stations that it knows are illegal, and that 
list, making it easily accessible so you don't have to dig down 
12 layers into the FCC database, would make it--a Web site 
that's publically available and easily accessible would go a 
long way towards advertisers understanding oh, OK, this person 
isn't licensed by the Federal Communications Commission.
    And I think that transparency in the marketplace would be 
very, very important to helping to resolve those who are 
facilitating illegal pirate operations, sir. I think it's a 
great idea.
    Mr. Collins. And, hopefully, as you say, let's list the 
illegal operators, hopefully under Chairman Ajit Pai, he'll be 
putting them out of business instead of listing.
    Mr. David Donovan. We hope. Absolutely we hope, and with 
the help of Congress to actually increase the enforcement tools 
and your suggestion, I think that will go a long way.
    Mr. Collins. Well, thank you for your testimony.
    Madam Chair, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    I have questions that I am going to submit in the interests 
of time and, Tim and Mr. Gessner, they'll come to you--looking 
at the efforts we are doing on streamlining and how those, with 
the FCC, how that will help speed broadband deployment. But I 
will submit that.
    Mr. Madigan, I've got one that will come to you. We will UC 
Mr. Tonko on for either submission or questions or a real quick 
ask?
    Mr. Tonko. Real quick ask, and I thank you for waiting 
beyond to the subcommittee, Madam Chair.
    I have several serious concerns with pirate radio and the 
weakness of current enforcement, which, in turn, has encouraged 
pirate radio operators to continue undeterred.
    For years now, I, along with many members of New York and 
New Jersey delegations, have voiced our concerns on this issue, 
yet pirate radio operators are as prevalent as every and their 
actions have been met with few consequences.
    This legislation, obviously, comes in response to the 
growing number of pirate radio broadcasters in the region that 
are harming consumers and public safety.
    According to complaints filed with the FCC, the number of 
pirate FM radio stations throughout New York City could 
outnumber the number of licensed operations while the problem 
in northern New Jersey may be equally as pervasive.
    In Albany, we had a problem with private radio operators 
where a private--a pirate radio station was interfering with 
another legitimate station and was a nuisance to my 
constituents who were exposed oftentimes to what was vulgar 
language.
    I've worked on this legislation and am proud to have done 
so in a bipartisan way with Congressman Leonard Lance, and I 
hope that this committee will work and move this forward.
    To Mr. Donovan--Mr. David Donovan, what effect can pirate 
radio have on the emergency alert systems?
    Mr. David Donovan. What it does is it interferes with those 
who rely on the emergency alert system--consumers who are 
listening to the radio.
    Pirate stations don't participate in the alert system and 
the pirate stations actually interfere with the EAS signals 
that consumers rely on.
    In addition to that, it also interferes with any important 
lifesaving news that follows up. You take it one step beyond, 
and apart the EAS, the interference to FAA frequencies is 
rather scary because the enforcement is post hoc.
    The interference occurs while the plane is trying to land, 
and then you have to go try to find the pirate, and those 
situations, taken together, create a very dangerous situation, 
sir.
    Mr. Tonko. Thank you for that clarification.
    Mrs. Blackburn. Mr. Tonko, I need to limit you to that 
question.
    Mr. Schrader has come in, and they have called the vote. If 
you don't mind.
    Mr. Tonko. OK. Thank you. OK. Thank you.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Schrader, you're recognized, 3 minutes.
    Mr. Schrader. Thank you, Madam Chair and Ranking Member 
Doyle, for allowing me to sit in.
    Sorry I couldn't spend more time here throughout the 
hearing. We are bouncing back and forth. We've got another 
hearing in the Health Subcommittee that we are talking care of, 
too.
    I just want a few minutes to speak in favor of H.R. 3787, 
the Small Entity Regulatory Relief Opportunity Act. It's a bill 
I am working on with Representative Latta. I want to thank him 
and his team for all their help and support. Good bipartisan 
effort here.
    Every member of the committee wants to expand rural 
broadband. The answer to doing that isn't necessarily always 
more money. Burdensome regulations harm many of these small 
entities' ability to grow, expand, and hire new employees, and 
maybe we can do something to alleviate some of those burdens.
    Hopefully, by establishing some of these streamlined 
procedures in the bill, by obtaining waivers from regulations 
that are often unnecessary and not even designed for these 
smaller entities we provide a little relief for our small 
telecom providers, with a little greater certainty and 
efficiency to help them to continue to do the things they do 
best for our very, very small and rural communities.
    At the basic level, we are finally recognizing locally 
based small business do not have the same ability as major 
corporations to comply.
    Many of these small entities have an entire workforce of, 
like, eight or 10 people. They don't have the resources or 
floor of lawyers to file petition after petition with the FCC.
    I think it's incumbent we all recognize and acknowledge 
that these unique--that there are unique business regulatory 
challenges for these small entities and we are trying to help 
them with this bill here and would hope the committee and 
Congress and gentleman out there would share and consider this 
bill.
    Thank you very much.
    Mrs. Blackburn. And I think there's been plenty of support 
expressed for that today, and also Representative Stewart has 
entered the room and we thank him for the work that he has done 
on the suicide bill.
    Seeing there are no further Members wishing to ask 
questions for the panel, I want to thank our witnesses very 
much for your patience today, for being here with us.
    As we've said, it is a busy day, just a few things going 
on, both in Energy and Commerce and on the floor.
    Before I conclude, I ask unanimous consent to enter the 
following documents in the record: Mr. Donovan's slides, and 
Mr. Lance, the New York State Broadcasters' pirate radio study.
    Without objection, so ordered.\1\
---------------------------------------------------------------------------
    \1\ The slides appear with David Donovan's prepared statement. The 
New York State Broadcasters' study has been retained in committee files 
and also is available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108059.
---------------------------------------------------------------------------
    Mrs. Blackburn. Pursuant to committee rules, I remind 
Members that they have 10 business days to submit additional 
questions for the record, and I ask that each of you witnesses 
respond to these questions within 10 business days upon receipt 
of those questions.
    Seeing no further business to come before the subcommittee 
today, the committee is adjourned.
    [Whereupon, at 12:42 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                Prepared statement of Hon. Leonard Lance

    Thank you, Madam Chairman, and thank you to our 
distinguished panel for appearing before us today.
    I am pleased we are considering the Preventing Illegal 
Radio Abuse Through Enforcement, or PIRATE, Act.
    Unlicensed FM and AM radio operators are a significant harm 
to public safety and public health. By disrupting and 
interfering with licensed broadcasts, these ``pirate radios'' 
can cause radio listeners to miss important updates during 
times of emergency by blocking the Emergency Alert System. As 
they do not adhere to FCC regulations, pirate radios also emit 
a harmful level of Radio Frequency radiation, posing a health 
risk to nearby residents and workers.
    I commend Chairman Pai and Commissioner O'Rielly for their 
leadership in enforcing against pirate radio operators at the 
FCC. However, as Commissioner O'Rielly has stated before this 
subcommittee, the FCC's current enforcement tools are not 
sufficient to eliminate these bad actors. My bill would 
increase the FCC's ability to crackdown on pirates by 
increasing the maximum fine, streamlining enforcement and 
holding facilitators liable among other things.
    I thank Congressmen Tonko, Collins, and Bilirakis for their 
leadership on this issue and for working with me on this 
important legislation. Our States are among the most affected 
by pirate radio operators in the country and I am pleased we 
are able to work bipartisanly to protect our constituents from 
these menaces to public safety and health.
    Thank you also to David Donovan from the New York 
Broadcasters for your advocacy on this issue and for testifying 
today. I look forward to our discussion.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
